IV

^2.o - 7^^
No..
In The

Audie Jay Reynolds,
Petitioner,
v.
US Bank National Association
Respondents.
On Petition for a Writ of Certiorari
To The Supreme Court of Arizona

FILED
NOV 1 1 2020
OFFICE OF THE CLERK
SUPREME COURT ILS

PETITION FOR A WRIT OF CERTIORARI
Audie Reynolds. Pro Se
Audie Reynolds, Pro Se
Desertpilot2000@gmail.com
PO Box 13442 Scottsdale, AZ 85267

i

NOV 2 5 2020

1

QUESTION PRESENTED
Currently Arizona uses a scheme of statutes to
effectuate forced conveyances of residential singlefamily property via a non-judicial foreclosure. It is
known as the Deed of Trust Scheme. Generally, the
property is taken from its owner, as here, by way of
using the county recorder’s office where the property
is located. The process includes a total of three
documents typically all recorded by the lenders
substituted in a 90-day period after which time the
trustee sells the property at a trustee sale granting
the property to the highest bidder at that sale.
Arizona Revised Statutes (A.R.S.) § 12-1177 (A) states
a trustee’s deed is presumed to comply with Arizona
law and under A.R.S. 83-11(c) the homeowner waives
all defenses to that sale once it has occurred.
Consequently, any subsequent homeowner claims are
mute. See A.R.S. § 12-1177(A) and A.R.S. § 33-811(C)

where borrower “waives all defenses and objections to
the sale not raised in an action that results in the
issuance of a Court order granting relief...” Under
these combined statutes

Petitioner “waived”

his

claims asserted under A.R.S. § 39-161 which
prohibiting any person or entity from recording false
instruments that give rise to fraudulent, baseless
claims of interest in real property. However,
Petitioner clearly did not “waive” these claims and
therefore has been deprived of his property without
due process of law under the fifth amendment. In
some instances, as here, a constitutional injury arises
as a result of two or more statutory provisions
operating together. See, Seila Law LLC v. Consumer
Financial Protection Bureau, March, 2020 citing, Free
Enterprise Fund, supra, at 509 (stating that the
convergence of “a number of statutory provisions”
produce a constitutional violation). The provision
requiring “good-cause removal is only one of [the]

statutory provisions that, working together, produce
a constitutional violation.” Arizona provides no path
for a homeowner to assert challenges to the trustee
sale after it has occurred and the Deed of Trust
Scheme is an arrangement of statutes leading to non­
judicial forced conveyances without due process and
is therefore unconstitutional. Thus, the question
presented is:
Does the Arizona Deed of Trust Scheme provide good
cause for removal of one or more of its provisions
under severability?
The answer from this Court is of national importance
in these unprecedented times of our country’s
financial uncertainty. Many homeowners across the
county currently await these scheduled trustee sales
and also rely on the ability of the Consumer Financial
Protection Bureau (“CFPB”) for oversight.
ii

1

LIST OF PARTIES TO PROCEEDING AND
RELATED CASES

All parties are listed in the caption of the case on the
cover of which no party is a corporation. There are no
proceedings in other courts directly related to the case
in this Court Rule 14.1(b)(iii).

iii

TABLE OF AUTHORITIES
Opinions

Page(s)

Free Enterprise Fund, supra, at 561 U. S.at 509
2,12
Booker, 543 U. S., at 316-317 [18 U. S. C.j
§3553(b)(1) ...................................................

2,12

In reKrohn, 203 Ariz. 205, 208. P.3d 774, 777
(2002)............................................................... .

2

BT Capital, 229 Ariz. at 301 f 11, 275 P.3d at 600
4
Curtis v. Morris, 186 Ariz. 534, 535 (1996)

5,10

Obduskey v. McCarthy and Holthus LLP, 17-1307
5,6
Carrington Mortgage Sers. v. Woods, 242 Ariz
455,457 (App2017)..............................................

10

Barrionuevo u. Chase Bank, N.A., at pp. 973-974...11
Little v. CFS Service Corp. (1987) 188 Cal.App.3d
1354, 1362, 233.......................................................... 11
Colby v. Title Ins. And Trust Co. (1911) 160 Cal. 632,
644, 117 P. 913
11
Murphy, 584 U. S., (slip op., at 4-6)

12

United States Code
28 U. S. C. § 1257(a)

2

28 U.S.C. § 1254(1)

2

Arizona Revised Statutes
A.R.S. §33-811(C)

4,9,13

A.R.S. § 12-1177 (A)

4,5,10

A.R.S. §33-803 (A)(6)

7

A.R.S. §33-811 (B)

13,15

A.R.S. §33-803 (C)

14

A.R.S. §33-807 (A)

15

A.R.S. §33-808.

15

A.R.S. §33-810

15

The Arizona Deed of Trust Scheme A.R.S. §§ 33801-821....3
Rest.2d Contracts,§ 7, com. A

TABLE OF CONTENTS
OPINIONS BELOW,

1

JURISDICTION,

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED........................

3

STATEMENT OF THE CASE

7

REASONS FOR GRANTING THIS PETITION.....11
CONCLUSION

14

INDEX TO APPENDICES
Appendix A
Decision of Division One, Arizona Court of Appeals
Appendix B
Decision of the Arizona Superior Court
Appendix C
Decision of Arizona Supreme Court
Denying Review

OPINIONS BELOW
Petitioner respectfully prays a Writ of Certiorari be
issued by the Supreme Court of the United States for
review of the preceding judgments below:
The December 26, 2019 Memorandum Decision of
Division One Court of Appeals for the State of
Arizona designated as Appendix A to the petition
and is unpublished.

The August 14, 2018 Ruling of the Superior Court,
upheld by Division One, Court of Appeals, designated
as Appendix B to the petition and is unpublished .
The August 26, 2020 Arizona Supreme Courts denial
of discretionary review designated as Appendix C to
the petition and is unpublished.

1

JURISDICTION
The date on which the highest state court decided
the case was August 26, 2020. A copy of that decision
appears at Appendix C. The jurisdiction of the
Supreme Court is invoked under 28 U. S. C. §
1257(a) and Jurisdiction is proper under 28 U.S.C. §
1254(1) and Rule 13.3. Equally Arizona’s Deed of
Trust statutory scheme is unjust in light of the Fifth
Amendment as well as the Fair Debt Collection
Practices, which is an issue of federal importance
that should be settled by this Court.

2

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
This injury was caused as the result of at least two
statutory provisions which all operating together
lead to unconstitutional fact finding. See, e.g., Free
Enterprise Fund, supra, at 509 (stating that the
convergence of “a number of statutory provisions”
produce a constitutional violation); Booker, 543 U. S.,
at 316-317 (opinion of THOMAS, J.) (explaining that
“the concerted action of [18 U. S. C.] §3553(b)(l) and
the operative Guide-lines and the relevant Rule of
Criminal Procedure resulted in unconstitutional
judicial factfinding”). The Deed of Trust scheme
enacted in 1971 is articulated in Title 33 of Arizona
Revised Statutes (A.R.S.) §§ 33-801-821 and is
commonly used as “an alternative to the cumbersome
judicial foreclosure system.” See In re Krohn, 203
Ariz. 205, 208. P.3d 774, 777 (2002).

3

However, problematic here is this combination of
statutory

provisions

in

Arizona’s

nonjudicial

foreclosure scheme, when implemented with those
statutes interpretations deprive

homeowners from

the outset from defending their property rights in the
Forcible Detainer Action (“FED”) and are denied due
process under the fifth amendment.

In Arizona, a Recorded Trustees Deed is a prima
summary judgment in favor of the grantee as a
result of these strictly interpreted statutes. For
instance, a person subject to A.R.S. § 33—811(C)
“cannot later challenge the sale based on pre-sale
defenses or objections.” See BT Capital, 229 Ariz. at
301 If. 11, 275 P.3d at 600. Also A.R.S. § 12-1177(A)
explains the purpose of the FED is limited and
intended to afford a summary, speedy and adequate
remedy for obtaining possession. In a FED action,
"the only issue shall be the right of actual possession
and the merits of title shall not be inquired into."

4

Thus, the merits of the Plaintiffs title are beyond the
scope of an FED action. See A.R.S. § 12-1177(A) (“[In
an FED action], the only issue shall be the right of
actual possession and the merits of title shall not be
inquired into.”); see also Curtis v. Morris, 186 Ariz.
534, 534 (1996). Since the only issue is the right of
possession, the Plaintiff has the right of possession
under the trustee’s deed which will stand forever
unopposed as allowed by this presumption.
Problematic here is Mr. Reynolds was also barred
from asserting his claims against the fraudulent
trustee for the sole reason that the trustee was
expressly designated as grantee and owner of the
property by virtue of the recorded trustee’s deed.
Recently in Obduskey v. McCarthy and Holthus LLP,
17-1307 the Court held that a business engaged in
nonjudicial foreclosure proceedings was not a debt
collector under the Fair Debt Collection Practices Act
as long as they are engaged only in that act. In
Arizona these Plaintiffs are engaged in more than

5

just the sale including the recovery of excess
proceeds after the sale, representing the lender, or
represent purchaser as plaintiff in a forcible detainer
actions and these important issues were not fully
resolved.
“I would see as a different case one in which the
defendant went around frightening homeowners with
the threat of foreclosure without showing any
meaningful intention of ever actually following
through. There would be a question, in such a case,
whether such an entity was in fact a “business the
principal purpose of which is the enforcement of
security interests,” see §1692a(6), or whether it was
simply using that label as a stalking horse for
something else.” See Obduskey v. McCarthy and
Holthus LLP, Justice Sotomayor, concurring.

6

■M

STATEMENT OF THE CASE
Plaintiff purchased the subject property at 3322 Pine
Ridge Dr., in Overgaard, Arizona in 2005 and
November 11, 2017 the Trustees Deed Upon Sale is
recorded

in

Navajo

County

where

Western

Progressive as Appellees duly appointed trustee...
“hereby Grants and Conveys, but without covenant
or warranty express or implied to US Bank...”
However, this recording is in direct conflict to
Western Progressives Notice of the sale also recorded
in Navajo which stated the “Trustee Sale Assistant”
C. Scott, signatory of Western Progressive as the said
Trustee notarized the document in Cobb County
Georgia “Pursuant to ARS 33-803(A)(6), the trustee
qualifies as a trustee of the Deed of Trust in the
trustee’s capacity as a corporation all the stock of
which is owned by Premium Title Agency, Inc. an
escrow agent in the state of Arizona. The regulators of
Premium Title Agency are the Arizona Department of
Insurance and the Arizona Department Financial

7

Institutions...” In addition, the sole mailing address
for Western Progressive is the Statutory Agent CT
Corp with the same Delaware Statutory Agent and
mailing address. CT Corp does not offer or provide
trustee sale or foreclosure services for Arizona
homeowners.

January 4, 2018 The forcible detainer complaint is
filed,

and Mr.

Reynolds timely answered and

asserted his defenses including lack of capacity. June
14, 2018 Mr. Reynolds attended the forcible detainer
hearing where he testified and responded to the
original complaint served by Plaintiffs. At that
hearing Plaintiffs informed Mr. Reynolds they had
motioned to amend their complaint. However, the
trial court and Mr. Reynolds did not receive a copy of
the motion the day of the hearing and later Mr.
Reynolds never received the motion, the ruling on
the motion, or the amended complaint.

8

.

j

August 14, 2018 two months later the trial court
issued the initial order on appeal which is incorrect
as to the facts and the law. Stating in pertinent part
“Mr. Reynolds has made untimely and irrelevant
attacks of the Trustees Deed upon Sale, See ARS §
33-811(c).” Mr. Reynolds timely Appealed although
the

appellant court also

affirmed the

forcible

detainer judgment December 26, 2019 upholding the
recorded trustees deed. As stated by the Court...

"15 Reynolds argues the superior court erred by
entering judgment in favor of US Bank. First, he
claims

that

US

Bank

was

not

“executor,

administrator, guardian, bailee, or grantee” of the
trustee’s deed and thus could not prosecute the FED
action as real party in interest. But US Bank—
specifically, “U.S. Bank National Association, as
Trustee for Residential Asset Mortgage Products, Inc.,
Mortgage Asset-Backed Pass- Through Certificates,
Series 2006-NC2”—was expressly designated as

9

grantee under the trustee’s deed. And as owner of the
property by virtue of the trustee’s deed, US Bank
established its right to possession. See Carrington
Mortg. Servs. LLC v. Woods, 242 Ariz. 455, 457, If 12
(App. 2017).

f 6 Second, Reynolds urges that defects in the trustee’s
sale render the trustee’s deed invalid and thus
undermine US Bank’s asserted right to possession.
But the merits of US Bank’s title are beyond the scope
of an FED action. See A.R.S. § 12-1177(A) (“[In an
FED action], the only issue shall be the right of actual
possession and the merits of title shall not be inquired
into.”); see also Curtis v. Morris, 186 Ariz. 534, 534
(1996). The only issue was the right of possession,
and as described above, US Bank had the right of
possession under the trustee’s deed. ”

Mr. Reynolds Petitioned the Arizona Supreme Court
for Review and was denied on August 26, 2020.

10

REASONS FOR GRANTING THE PETITION
This Petition should be granted because Arizona is in
direct conflict with prevailing cases decided in
California which rightfully acknowledge wrongful
foreclosure actions where, "If a purported assignment
necessary to the chain by which the foreclosing entity
claims that power is absolutely void, meaning of no
legal force or effect whatsoever, the foreclosing entity
has acted without legal authority by pursuing a
trustee's sale,

and such an

unauthorized sale

constitutes a wrongful foreclosure. Barrionuevo v.
Chase Bank, N.A., at pp. 973-974. "A void contract is
without legal effect. (Rest.2d Contracts,§ 7, com. A.)
"It binds no one and is a mere nullity." (Little v. CFS
Service Corp. (1987) 188 Cal.App.3d 1354, 1362, 233
Cal.Rptr. 923.) "Such a contract has no existence
whatever. It has no legal entity for any purpose and
neither action nor inaction of a party to it can
validate it...." (Colby v. Title Ins. And Trust Co.
(1911) 160 Cal. 632, 644, 117 P. 913.) Clearly

11

California

correctly

recognizes

that

wrongful

foreclosure is a valid defense and ensures due
process for its property owners.

This Petition should also be granted because this
Court’s precedents are questionable as to good cause
for severability and should be resolved

“...the

severability inquiry moves away from statutory
interpretation

and

falls

back

on

this

Court’s

questionable precedents. See Murphy, 584 U. S., at
(THOMAS, J., concurring) (slip op., at 4-6). An
analysis of the Court’s decisions in Booker and Free
Enterprise Fund illustrates the Court’s approach to
determining

which

provision

to

sever

when

Confronting an injury caused by an unconstitutional
convergence of multiple statutory provisions.” At
issue here, the convergence of the Arizona’s deed of
trust

statutory provisions,

a framework which

streamlines the foreclosure process and yet is still
supposed to maintain protections for borrowers and

12

the public. This Court should determine whether the
public policy of protecting borrowers outweighs the
interest in enforcing the waiver of challenges
continuously recited in all post sale rulings, and if
routinely waiving any trustee sale irregularities
seriously disrupts protecting homeowners in light of
constitutional due process verses Arizona overall
statutory scheme in totality gives good cause for this
Court to severe parts of its provisions including
A.R.S. §33-811(B), and A.R.S. § 33-811(C) when
determining

judgment

routinely

validate

any

recorded trustees deed which allows the purported
highest bidder unopposed rights to actual possession
of Arizona properties. Consequently, any Arizona
homeowner in default is denied due process.

13

CONCLUSION
Petitioner was denied his right to constitutional due
process as a result of these combined statutory
provisions. An individual must qualify as a trustee of
a trust deed to conduct a foreclosure sale of an
Arizona property but because of these statutory
provisions Mr. Reynolds was and was unable to
assert his claims to defend his property.
“A trustee of a trust deed who qualifies under
subsection A shall not lend or delegate the trustee's
name or corporate capacity to any individual or entity
that does not qualify as a trustee of a trust deed. An
individual, company, association or corporation shall
not circumvent the requirements of subsection A by
acting in concert with a nonqualifying trustee.”A.R.S.
§ 33-803 (C). C. Scott “Trustee Sale Assistant” as
Western Progressives signatory does not qualify as
an Arizona Trustee.

14

Assistant Trustees are not recognized and do not
have the Power of Sale in Arizona and thus the
property was sold by a non-qualified individual
located out of the state of Arizona and purporting to
be an Arizona Trustee with the Power of Sale under
a Deed of Trust. Consequently, Plaintiffs did not
have capacity to initiate litigation. An action must
also be prosecuted in the name of the real party in
interest. Here, Plaintiffs were not. They were not
executor, administrator, guardian, bailee, or grantee,
of the trustees deed they rely on. Without a proper
successor trustee, there is no power of sale under
A.R.S. § 33-807(A) and has no authority to notice the
trustee's sale under A.R.S. § 33-808, and no right to
conduct the sale under A.R.S. § 33-810, or to collect
the funds and issue a trustee's deed under A.R.S. §
33-811 because the false instruments including the
trustees deed won’t cure a defective sale.

15

This Petition for a Writ of Certiaori

should be

granted to allow homeowner challenges to the
recorded trustees deed, the trustee sale, and allow
for wrongful foreclosure claims and oversight from
the CFPB of any related actions to the proceeds of
those sales.

Respectfully Submitted, November 14, 2020

/s/ Audie Reynolds
Audie Reynolds
Desertpilot2000@gmail.com
PO Box 13442
Scottsdale, AZ
85267

16

